HHS/OIG Audit:"State of Delaware Department of Health and Human Services Section 1864 - 1902 Survey and Certification Costs for Health Care Providers and Suppliers October 1, 1997 - September 30, 1999,"(A-03-00-00210)
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"State of Delaware Department of Health and Human Services Section 1864 - 1902 Survey and Certification Costs for
Health Care Providers and Suppliers October 1, 1997 - September 30, 1999," (A-03-00-00210)
November 13, 2001
Complete
Text of Report is available in PDF format (971 KB). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This audit report presents the results of our review of survey and certification costs allocated to the Medicare and Medicaid
certification, and State licensing programs in the State of Delaware for Fiscal Years 1998 and 1999.  Our review disclosed
that the State agency (SA) overcharged the Medicaid program by $155,321 in Federal Financial Participation and undercharged
Medicare by $22,110.  We recommended financial adjustments.  We also recommended that the SA develop and implement
a new cost allocation plan that appropriately allocates costs between Medicaid and Medicare; and other procedural corrections.